Ti

COCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B r ie fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

PINOLEVILLE POMO NATION, ANGELA JAMES,
LEONA L. WILLIAMS, LENORA STEELE,
KATHY STALLWORTH, MICHELLE CAMPBELL,
JULIAN J. MALDONADO, DONALD WILLIAMS,
VERONICA TIMBERLAKE, CASSANDRA STEELE,
JASON EDWARD RUNNING BEAR STEELE,
and ANDREW STEVENSON,

Petitioners,

v.
JW GAMING DEVELOPMENT, LLC,
a California limited liability company,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 30th day of January, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

 

SEE ATTACH

 

 

D

 

To be filed for:
RUDOLPH E. VERNER
Counsel of Record
BERG HILL GREENLEAF RUSCITTI LLP
1712 Pearl Street
Boulder, CO 80302
p. 303) 402-1600
rev@bhgrlaw.com

PADRAIC MCCOY
PADRAIC I. MCCOY, P.C.
6550 Gunpark Drive
Boulder, CO 80301

p- 303) 500-7756
pmce@pmccoylaw.com

Counsel for Petitioners

Subscribed and sworn to before me this 30th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
Slate of Nebraska : LS OQndaw .
My Commission Expires Nov 24, 2020 A

Notary Public Affiant

 

 

39363
Gregory M. Narvaez

John M. Peebles

Tim Hennessy

Fredericks Peebles & Morgan LLP
2020 L Street, Suite 250
Sacramento, CA 95811
916-441-2700
gnarvaez@ndnlaw.com

Counsel for Respondent JW Gaming Development, LLC
